           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



 DISABLED SUPPLEMENTAL SECURITY
        INCOME RECIPIENTS
          WITH EARNINGS


    April 2005    A-01-04-14085




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   April 11, 2005                                                                 Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Disabled Supplemental Security Income Recipients with Earnings (A-01-04-14085)



        Our objective was to evaluate whether the Social Security Administration (SSA)
        considered the earnings of disabled individuals when determining Supplemental
        Security Income (SSI) eligibility and payment amounts.

        BACKGROUND
        Title XVI of the Social Security Act established the SSI program in 1972. SSI is a
        nationwide Federal cash assistance program administered by SSA that provides a
        minimum level of income to financially needy individuals who are aged, blind or
        disabled.1 In Fiscal Year (FY) 2004, SSA paid approximately $35.2 billion in SSI
        payments to about 7.1 million recipients.

        DETECTING AND EVALUATING UNREPORTED EARNINGS

        SSA relies heavily on recipient self-disclosure of all financial resources, as well as
        computer matching with other Federal and State agencies, to ensure payment
        accuracy. According to SSA, the majority of SSI overpayments result from recipients’
        failure to report changes in income (such as earnings).2

        Computer Data Matches

        SSA conducts several computer matches with Federal and State agencies to detect and
        verify unreported (or underreported) earnings. For example, in 1998, SSA began
        running quarterly matches against wage data maintained by the Office of Child Support

        1
            The Social Security Act §1601, et seq; 42 U.S.C. §1381, et seq. See also 20 C.F.R. § 416.110.
        2
         SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year 2003,
        page 38. For additional information about SSA’s efforts to identify and prevent overpayments due to
        earnings, see Appendix B.
Page 2 – The Commissioner

Enforcement’s National Directory of New Hires database. In addition, SSA compares
earnings recorded on its Master Earnings File (MEF) to the earnings used to calculate
SSI payments as shown on the Supplemental Security Record (SSR). When significant
discrepancies are found from either of these matches, diaries are established to alert
Field Office employees to the need for a review based on the match.3

Redeterminations

The SSI program requires that individuals’ income, resources and living arrangements
be assessed on a monthly basis for purposes of determining eligibility and payment
amounts. Therefore, SSA conducts redeterminations4 and limited issue reviews5 to
ensure recipients remain eligible for SSI payments. Scheduled redeterminations are
selected annually or once every 6 years, depending on the likelihood of payment error.
Unscheduled redeterminations and limited issue reviews are also completed when SSI
recipients report—or SSA discovers—certain changes in circumstances that could affect
continuing SSI payment amounts (for example, earnings discrepancies identified
through computer matches).6 According to SSA, redeterminations are the Agency’s
most powerful tools in identifying and preventing SSI overpayments.7 The Agency
processed over 2.2 million periodic redeterminations in FY 2004.

Modernized Supplemental Security Income Claims System

SSA’s Modernized Supplemental Security Income Claims System (MSSICS) is the
primary data collection and processing system for the SSI program. SSA uses the
system to process and document SSI events. Use of the system maintains a
permanent and accessible record of a claimant’s SSI initial application and any
subsequent transactions. For example, when a Field Office employee verifies the
earnings of an SSI recipient, the earnings are recorded in MSSICS. For the earnings to
be used in the SSI payment calculations, the employee must transmit the information
from MSSICS to the SSR.



3
 SSA’s diary alerts result when matches identify earnings discrepancies of at least $1,000 per year (or
$250 per quarter).
4
 Redeterminations are periodic reviews of the non-medical factors of SSI eligibility (20 C.F.R. § 416.204).
SSA’s policy requires Field Office employees to resolve discrepancies that may exist between earnings
on the MEF and the SSR during redeterminations (SSA, POMS SI 02305.071).
5
  Limited issue reviews are redeterminations that are limited in scope and do not require a full review of
eligibility (e.g., when a discrepancy is identified by a computer match). Once the discrepancy is resolved,
the limited issue is cleared.
6
    SSA, Annual Report of the Supplemental Security Income Program, May 2003, page 82.
7
 SSA, Performance Plan for Fiscal Year 2004 and Revised Final Performance Plan for Fiscal Year 2003,
page 38.
Page 3 – The Commissioner


ADMINISTRATIVE FINALITY

Administrative finality is the term used by SSA to describe the rules under which the
Agency may reopen and revise determinations of eligibility and payment amounts.
Under the Agency’s rules, determinations may be reopened and revised:8
         Within 1 year for any reason;
         Within 2 years for good cause;9 or
         At any time if fraud or similar fault exists.10

When SSA discovers earnings discrepancies for prior years and administrative finality
applies, revisions to determinations are limited to the time periods allowed under the
rules. Therefore, the Agency only assesses overpayments within the administrative
finality time periods unless fraud or similar fault exists. Even though individuals may
have had earnings which would have caused SSI ineligibility if detected sooner, SSA
does not pursue recovery of payments issued beyond these time periods and it does
not record them as overpayments.

RESULTS OF REVIEW
SSA considered the earnings of most disabled individuals when determining SSI
eligibility and payment amounts. However, we identified some overpayments that were
previously undetected because not all of the recipients’ earnings were considered in the
SSI payment calculations. In addition, we identified payments that would have been
considered overpayments if SSA discovered and reviewed the earnings within the time
periods allowed under the Agency’s administrative finality rules.

Based on the results of our sample, we estimate that approximately $12.4 million was
overpaid to about 11,880 recipients because SSA did not previously consider all of their
earnings when calculating SSI payment amounts.11 We also estimate that, if the
Agency resolved the earnings discrepancies within the administrative finality periods,
approximately an additional $74.7 million in overpayments to about 61,380 recipients
would have been recognized. Finally, we estimate that about $8.1 million in
underpayments to about 11,880 SSI recipients was not paid because administrative
finality was invoked and their SSI records were not revised.


8
    20 C.F.R. §§ 416.1487 and 416.1488.
9
 Good cause to reopen a determination exists if new and material evidence is furnished, a clerical error
has been made, or there is an error on the face of the evidence (20 C.F.R. § 416.1489).
10
  Fraud exists when any person knowingly, willfully and with intent to defraud makes or causes a false
statement to be made or conceals or misrepresents a fact that is material to eligibility or payment amount.
Similar fault exists under the same circumstances except intent to defraud is not required.
11
  We are currently conducting a review to quantify the amount of undetected overpayments in SSA’s
disability programs (A-01-04-24065). We expect to issue our report in FY 2005.
Page 4 – The Commissioner

                                                               Of the 275 recipients in our sample:
                         Results of Review
                                             Not All              43 recipients’ earnings were not
                                         Earnings Were
                                          Considered
                                                                   considered when SSA calculated
                                          (43 Cases)               SSI payment amounts;

                                                                  224 recipients’ earnings were
           Earnings                            Still Being         properly considered;12 and
           Previously                         Reviewed by
         Considered by                       SSA (8 Cases)
             SSA                                                  8 recipients’ earnings continued
          (224 Cases)                                              to be evaluated by SSA as of
                                                                   March 2005.


EARNINGS NOT CONSIDERED IN SSI PAYMENT CALCULATIONS

Of the 275 SSI recipients in our sample, 43 (16 percent) had earnings recorded on the
MEF that were not recorded on the SSR. Of these 43 recipients,
          6 had undetected overpayments because earnings were not previously
           developed;13
          37 may have been incorrectly paid, however, the Agency invoked administrative
           finality and did not review the variances.

Undetected Overpayments

We identified 6 cases in which earnings were not previously developed and
overpayments totaling $6,272 went undetected by SSA. As a result of our audit, the
Agency reviewed the earnings and assessed the overpayments.

For example, earnings recorded on the MEF for one recipient were not reported on the
SSR for 2002. Although the earnings were on the MEF, SSA did not review and post
the earnings to the SSR. As a result of our audit, the Agency reviewed the earnings
and assessed an overpayment of $1,456.

Impact of Administrative Finality

SSA invoked administrative finality and did not review the earnings discrepancies for
37 recipients in our sample. This includes 31 recipients whose earnings would likely
have caused overpayments totaling about $37,739 if the Agency reviewed the

12
  We included in this group individuals in our sample whose earnings, although not recorded on the SSR,
would not materially impact SSI eligibility (for example, individuals who were already ineligible for SSI for
reasons unrelated to their earnings).
13
  SSA went beyond the scope of administrative finality to correct 2 of the 6 cases. We are currently
conducting an audit (A-01-04-24024) to assess whether administrative finality is consistently applied in
SSI cases. We expect to issue our report in FY 2005.
Page 5 – The Commissioner

discrepancies and recorded the earnings to the SSR within the 2-year administrative
finality reopening period. This also includes 6 individuals whose actual earnings were
less than the estimated earnings previously used in the SSI calculations. Additional SSI
payments (totaling about $4,104) may have been due these 6 individuals if not for
administrative finality.

For example, the earnings recorded on the MEF for one individual in our sample
exceeded the amounts used to calculate the SSI payments that were issued in
1998, 1999 and 2001. Although the earnings were recorded on the MEF, SSA did not
previously review the earnings. We alerted the Agency to the case during our audit but,
because too much time had elapsed since the individual received the earnings, SSA did
not review the discrepancies. We estimate that SSA would have recorded an
overpayment of approximately $3,525 if the Agency reviewed the earnings within the
2-year administrative finality period.

In another example, SSA withheld a portion of a recipient’s SSI payments based on her
estimated earnings for 1999 and 2000. However, her actual earnings posted to the
MEF were less than the amounts previously estimated. Although we alerted SSA to the
discrepancy during our audit, too much time elapsed and the Agency did not review the
earnings because of administrative finality. We estimate that this individual may have
been eligible to receive an additional $1,019 in SSI payments if the Agency reviewed
the earnings within the 2-year administrative finality period.

Opportunities Existed to Identify and Evaluate Earnings

Of the 43 recipients with earnings that were not considered in the SSI calculations, we
found that SSA had the opportunity to evaluate the earnings of at least 28 individuals
sooner. The following describes some past opportunities SSA had to identify and
evaluate the recipients’ earnings and the impact the earnings could have had on SSI
eligibility and payment amounts.

                         SSA performed redeterminations or limited issue reviews for
 Periodic                27 individuals but did not evaluate the earnings
 Redeterminations        discrepancies. For example, a recipient had earnings on the
                         MEF that exceeded earnings recorded on the SSR. A
redetermination was processed in October 2000 but SSA did not review the earnings
discrepancy.

                          SSA’s computer matching programs successfully identified
Earnings Diaries          the earnings discrepancies for at least 8 cases in our sample
                          and established diaries to alert SSA personnel. Although
                          earnings-related diaries were present for the years with the
discrepancies, SSA did not review the earnings. For example, one individual had
earnings recorded on the MEF that were greater than those recorded on the SSR for
1998 and 2000. The discrepancy was detected through a computer match and an
earnings-related diary was established on the SSR in 2001 but SSA did not evaluate the
Page 6 – The Commissioner

earnings. We estimate that this recipient would have been overpaid at least $7,053 but,
due to the Agency’s rules under administrative finality, SSA will not assess or collect
this amount.

                          Based on the results of our sample, we estimate the earnings
 Earnings Recorded        of about 7,920 recipients were recorded on MSSICS but not
 on MSSICS                transmitted to the SSR. For example, a Field Office
                          employee recorded one recipient’s earnings for 2000 and
                          2001 on MSSICS but did not close the transaction and send
the information to the SSR. As a result, the earnings were not included in the SSI
payment calculations. We estimate that this recipient would have been overpaid
$3,449, but due to the Agency’s rules under administrative finality, SSA will not reopen
the case.

CONCLUSIONS AND RECOMMENDATIONS
We identified some overpayments that were previously undetected because not all
recipients’ earnings were considered when SSA calculated SSI eligibility and payment
amounts. In addition, we identified payments that would have been considered
overpayments if the Agency had discovered and reviewed the earnings within the time
periods allowed under the Agency’s administrative finality rules. It is important that SSA
take all cost-effective steps to ensure payment accuracy, especially in light of the
Agency’s strategic goals for FY 2005, which include ensuring superior stewardship of
Social Security programs and resources. To assist SSA in achieving its goals, we
recommend that the Agency:

   1. Ensure that earnings-related diaries resulting from computer matches are
      adequately controlled by management and resolved timely.
   2. Remind Field Office employees to: (a) review earnings recorded on the MEF
      whenever redeterminations and limited issue reviews are performed, (b) review
      and resolve any discrepancies that exist between the MEF and the SSR, and
      (c) transmit earnings data to the SSR when recorded in MSSICS.

AGENCY COMMENTS
SSA agreed with our recommendations. Specifically, in April 2005, the Agency plans to
issue reminders to Field Office managers and staff about the importance of using
available resources to control and resolve earnings-related diaries. (See Appendix D
for SSA’s comments.)




                                         S
                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Identification and Prevention of Overpayments Caused by Earnings

APPENDIX C – Scope, Methodology and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FY       Fiscal Year
MEF      Master Earnings File
MSSICS   Modernized Supplemental Security Income Claims System
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United States Code
                                                                      Appendix B

Identification and Prevention of Overpayments
Caused by Earnings
In addition to the current tools used by the Social Security Administration (SSA), the
Agency is also pursuing implementation of new tools to help identify and prevent
Supplemental Security Income (SSI) overpayments caused by earnings. Examples of
some pilots (or testing) conducted by SSA are discussed below.

                    Between May and December 2003, SSA performed a pilot to test
Monthly Wage        the effectiveness of reporting wages by telephone. Approximately
Reporting           1,341 individuals volunteered to report their wages to SSA each
                    month by dialing a toll-free number. The pilot found that the
                    telephone wage reports were much more accurate than the
estimated wage amounts they replaced. SSA estimated that approximately $200 in
overpayments and $400 in underpayments would be prevented annually for every
person who reports his wages each month.

                        Effective in January 2005, SSA began a centralized wage
 Centralized            reporting test in which wage reports from SSI recipients serviced
 Wage Reporting by 10 Field Offices are processed by a centralized unit. SSI wage
                        earners serviced by the 10 Field Offices were notified about the
                        test and requested to send pay stubs of their wages to the
centralized unit which, in turn, will record the earnings on the record. The Centralized
Wage Reporting Test is intended to improve SSI payment accuracy, provide workload
relief to the Field Offices, and provide consistency to the wage reporting process by
having SSI monthly wage reporters send their pay stubs to the centralized unit.
                                                                                   Appendix C

Scope, Methodology and Sample Results
To accomplish our objective, we

       Reviewed applicable sections of the Social Security Act, the Code of Federal
        Regulations, and the Social Security Administration’s (SSA) Program Operations
        Manual System.

       Obtained a file of all Supplemental Security Income (SSI) recipients from
        1 of 20 Social Security number segments, who were receiving disability
        payments as of March 2002.1 We then determined which of these recipients had
        at least 1 year of earnings reported to the Master Earnings File (MEF) for years
        1996 to 2000 in which their earnings exceeded $780.2 We further narrowed this
        population by excluding cases in which:

            1. the recipients were entitled to disability benefits based on blindness; or

            2. the reported earnings were in the year of, or before, the recipients’ initial
               SSI application dates.

       Selected a random sample of 275 recipients from the population we identified
        and analyzed any earnings discrepancies. Specifically, we determined whether
        variances existed between earnings posted to the MEF and the earnings SSA
        considered when calculating SSI eligibility per the Supplemental Security Record
        (SSR). If the earnings did not reasonably agree to earnings recorded on the
        SSR, we reconciled the variances with SSA (using available electronic data
        and/or contacting appropriate Agency employees).3

We performed our audit in Boston, Massachusetts between April and
November 2004. We tested the data we obtained for our audit for accuracy and
completeness and determined it to be sufficiently reliable to meet our audit objective.
The entities audited were the Office of Income Security Programs under the Deputy
Commissioner for Disability and Income Security Programs and SSA Field Offices
under the Deputy Commissioner for Operations. We conducted our audit in accordance
with generally accepted government auditing standards.

1
  The last 2 digits of the Social Security number are randomly assigned and can contain digits "00" to
"99.” These Social Security numbers can be categorized into 20 segments, each containing groups of
5 digits. For this audit, we selected Social Security numbers ending with the digits “55” to “59.”
2
 The earned income exclusion of $65 per month applies when determining countable income. For SSI
purposes, we calculated $65 x 12 months to arrive at $780.
3
 By reasonably agree, we refer to cases in which the variance in earnings does not exceed $1,000. We
considered earnings discrepancies of $1,000 or less to be immaterial.


                                                   C-1
SAMPLE RESULTS
                              Table 1: Population and Sample Size
Population Size (one segment)                                                                      27,225
Sample Size                                                                                           275
Estimated Number of Recipients in Universe (Population of audited segment                         544,500
  multiplied by 20 segments)

Table 2: SSI Recipients Whose Overpayments Were                           Results in         Estimate
Not Detected By SSA Because Their Earnings Were                            Audited            in All 20
Not Accurately Considered in the SSI Calculations                         Segment            Segments
                                      Attribute Appraisal
Total Sample Results                                                                 6          NA
Point Estimate                                                                     594               11,880
  Projection Lower Limit                                                           262                5,240
  Projection Upper Limit                                                         1,157               23,140
                                      Variable Appraisal
Total Sample Results                                                  $         6,272           NA
Point Estimate                                                        $       620,925    $     12,418,500
  Projection Lower Limit                                              $       181,884    $      3,637,680
  Projection Upper Limit                                              $     1,059,966    $     21,199,320
Note: All projections are at the 90 percent confidence level.


Table 3: SSI Recipients Who May Have Been Over-                           Results in         Estimate
Paid If SSA Evaluated the Earnings Discrepancies Prior                     Audited            in All 20
to the Expiration of Administrative Finality Periods                      Segment            Segments
                                        Attribute Appraisal
Total Sample Results                                                                31          NA
Point Estimate                                                                   3,069               61,380
  Projection Lower Limit                                                         2,258               45,160
  Projection Upper Limit                                                         4,054               81,080
                                        Variable Appraisal
Total Sample Results                                                  $        37,739           NA
Point Estimate                                                        $     3,736,179    $     74,723,580
  Projection Lower Limit                                              $     2,027,776    $     40,555,520
  Projection Upper Limit                                              $     5,444,582    $    108,891,640
Note: All projections are at the 90 percent confidence level.




                                                                C-2
Table 4: SSI Recipients Who May Have Been Under-                          Results in         Estimate
Paid If SSA Evaluated the Earnings Discrepancies Prior                     Audited            in All 20
to the Expiration of Administrative Finality Periods                      Segment            Segments
                                        Attribute Appraisal
Total Sample Results                                                                 6          NA
Point Estimate                                                                     594               11,880
  Projection Lower Limit                                                           262                5,240
  Projection Upper Limit                                                         1,157               23,140
                                        Variable Appraisal
Total Sample Results                                                  $         4,104           NA
Point Estimate                                                        $       406,322    $      8,126,440
  Projection Lower Limit                                              $       119,275    $      2,385,500
  Projection Upper Limit                                              $       693,368    $     13,867,360
Note: All projections are at the 90 percent confidence level.


Table 5: SSI Records in Which Earnings Were Verified                      Results in         Estimate
Per MSSICS, But the Earnings Were Not Sent to the SSR                      Audited            in All 20
to Update the SSI Due and Paid Calculations                               Segment            Segments
                                      Attribute Appraisal
Total Sample Results                                                                 4          NA
Point Estimate                                                                     396                7,920
  Projection Lower Limit                                                           137                2,740
  Projection Upper Limit                                                           895               17,900
Note: All projections are at the 90 percent confidence level.




                                                                C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM                                                                         34111-24-1248


Date:      March 23, 2005                                                          Refer To: S1J-3

To:        Patrick P. O’Carroll
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of Inspector General (OIG) Draft Report, “Disabled Supplemental Security Income
           Recipients with Earnings” (A-01-04-14085)--INFORMATION

           We appreciate OIG's efforts in conducting this review. Our comments to the recommendations
           are attached.

           Please let us know if we can be of further assistance. Staff questions may be referred to
           Candace Skurnik on extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“DISABLED SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH
EARNINGS” (A-01-04-14085)

Thank you for the opportunity to review the OIG draft report. We agree with the findings and
recommendations contained in the report, and we will continue to take all cost-effective steps to
ensure payment accuracy.

Our responses to the specific recommendations are provided below. We have also included a
technical comment for your consideration.

Recommendation 1

SSA should ensure that earnings-related diaries resulting from computer matches are adequately
controlled by management and resolved timely.

Comment

We agree. Payments are more accurate when earnings discrepancies are identified and resolved
within the time frames afforded by the Agency’s administrative finality regulations. Adequate
controls are provided to the regional offices, area offices, and field offices (FOs) through the
instructions given them regarding the number and time frame for clearance of SSI
redetermination and limited issue cases. Additionally, the Modernized Supplemental Security
Initial Claims System (MSSICS) enhancements provide further management controls by now
precluding redetermination clearances unless the active computer match diaries are properly
addressed. Through the use of management monitoring tools, management has the ability to
accurately track the clearance of redetermination and limited issue cases. By April 1, 2005, we
will issue a reminder to FO managers to keep tight control of earnings-related diaries so that they
are resolved in a timely manner.

Recommendation 2

SSA should remind FO employees to: (a) review earnings recorded on the Master Earnings File
(MEF) whenever redeterminations and limited issue reviews are performed, (b) review and
resolve any discrepancies that exist between the MEF and the Supplemental Security Record
(SSR), and (c) transmit earnings data to the SSR when recorded in MSSICS.

Comment

We agree. The Agency has taken the necessary steps to address these issues. Since
March 27, 2002, the Agency has required the use of the RZwiz application, a computer program
designed to provide interview assistance for SSI redetermination or limited issue cases. It is not
intended to replace the SSR, but instead highlights error-prone areas, such as earned income for
the eligible individual, eligible spouse and deemors (parents and/or spouses of disabled children
and adults whose income is used to determine the disabled individual's or child's SSI payment
amount).


                                               D-2
Mandatory use of the RZwiz is incorporated in the Program Operations Manual System (POMS)
SI 02305.071: “RZwiz implements a SSI High-Risk Workgroup recommendation to improve
detection of wages, the single greatest cause of SSI payment error. RZwiz …improves the RZ
[redetermination] interview (the most error prone stage of the RZ process), by providing [field
office] claims representatives with an easy-to-use tool that automatically retrieves, consolidates
and interprets queries used during the RZ interview.”

The recommended procedures are consistent with POMS guidelines. However, by April 1, 2005,
we will issue a reminder to FO employees to reinforce the importance of following the existing
POMS SI 020310.055 and .062 procedures.


[SSA provided additional technical comments which we incorporated into this report as
appropriate.]




                                               D-3
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

Acknowledgments

In addition to those named above:

   Jeffrey Brown, Senior Auditor

   Kevin Joyce, IT Specialist

   Brennan Kraje, Statistician

   Alexander Rosania, Auditor

   Melinda Tabicas, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-04-14085.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
